<html>
<title> - THE FUTURE OF SCIENCE AND TECHNOLOGY AT THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  THE FUTURE OF SCIENCE AND TECHNOLOGY AT THE DEPARTMENT OF HOMELAND 
                                SECURITY

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                        THREATS, CYBERSECURITY,
                       AND SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 1, 2008

                               __________

                           Serial No. 110-102

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

43-871 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 









































































                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

               James R. Langevin, Rhode Island, Chairman

Zoe Lofgren, California              Michael T. McCaul, Texas
Donna M. Christensen, U.S. Virgin    Daniel E. Lungren, California
Islands                              Ginny Brown-Waite, Florida
Bob Etheridge, North Carolina        Paul C. Broun, Georgia
Al Green, Texas                      Peter T. King, New York (Ex 
Bill Pascrell, Jr., New Jersey       Officio)
Bennie G. Thompson, Mississippi (Ex 
Officio)

                   Jacob Olcott, Director and Counsel

       Dr. Chris Beck, Senior Advisor for Science and Technology

                       Carla Zamudio-Dolan, Clerk

           Kevin Gronberg, Minority Professional Staff Member

                                 ______

                                  (II)









































                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Chairman, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology....     1
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology....     3

                               Witnesses

The Honorable Jay Cohen, Under Secretary, Science and Technology, 
  Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6


  THE FUTURE OF SCIENCE AND TECHNOLOGY AT THE DEPARTMENT OF HOMELAND 
                                SECURITY

                              ----------                              


                         Tuesday, April 1, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
      Subcommittee on Emerging Threats, Cybersecurity, and 
                                    Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:19 p.m., in 
Room 311, Cannon House Office Building, Hon. James R. Langevin 
[chairman of the subcommittee], presiding.
    Present: Representatives Langevin, Christensen, Etheridge, 
Pascrell, McCaul, Lungren and Broun.
    Mr. Langevin. The subcommittee will come to order. The 
subcommittee is meeting today to receive testimony on today's 
hearing, the Future of Science and Technology at the Department 
of Homeland Security.
    Good afternoon. I would like to welcome everyone to today's 
important hearing on the Future of Science and Technology at 
the Department of Homeland Security, and I would like to begin 
my opening remarks by thanking Under Secretary Jay Cohen for 
his leadership at the Science and Technology Directorate. You 
have brought a great deal of direction and stability to the 
organization, Mr. Secretary; and I want to commend you for your 
efforts.
    I also would like to commend the thousands of dedicated 
people, of course, from the program managers within your 
Directorate to the scientists and researchers throughout the 
country who are working on homeland security research and 
development projects that will secure our Nation for the 
future. Your work is greatly appreciated.
    In a bipartisan fashion over the course of the 110th 
Congress, this subcommittee has spent a great deal of time 
working with Under Secretary Cohen and the Department to create 
a sound foundation for the research and development efforts 
that will protect our homeland. I therefore concur with the 
Under Secretary's focus on what he calls the four P's, getting 
the people, the processes, the partnerships, and the product 
right will ensure that the S&T Directorate achieves enduring 
success.
    Establishing this organizational structure, I believe, is 
critical, given the unique historical moment in which we find 
ourselves. Because the Department of Homeland Security has 
never before experienced a Presidential transition, it is more 
important than ever that those four P's are in place.
    Today, with our eye on the future, I look forward to 
discussing two sets of issues with the Under Secretary. The 
first are immediate concerns, the Homeland Security Institute, 
HSI, and the Homeland Security Science and Technology Advisory 
Council, or HSSTAC, both of which are set to sunset at the end 
of this year. We have been conducting a review to determine 
whether this committee should reauthorize the federally Funded 
Research and Development Center for Homeland Security.
    While HSI has taken steps toward developing more core 
competencies, I wonder if we see real compelling evidence that 
HSI has progressed sufficiently toward achieving competency in 
specific areas of interest to DHS or that HSI has become a 
fully functional Studies and Analysis FFRDC.
    Before the subcommittee decides to reauthorize HSI, and of 
course we are certainly still open-minded on this issue, I 
would like you to provide us with a comprehensive review 
justifying the need for the FFRDC, including information and 
data about the metrics with which S&T will assess HSI progress, 
efficiency, and effectiveness. We also need assurances that 
there will be an open competition for the next contract.
    I have similar questions about the use of the HSSTAC, which 
is also set to expire at the end of the calendar year. For 
several years, this advisory committee lay dormant. But under 
your leadership, Under Secretary Cohen, we resurrected it in 
2007 to do a report on improvised explosive devices. But I am 
unsure how the Department sees its future, and I am hoping we 
can discuss these issues today.
    The second set of issues includes long-term policy 
concerns; and while I believe the Under Secretary has done a 
great deal to strengthen the foundation of the Directorate in 
his year-and-a-half on the job, we all recognize that much work 
still remains. I think the organization's biggest challenge is 
to get the prioritization of research and development right.
    At the Under Secretary's last appearance in June, 2007, we 
spent some time discussing the S&T's strategic plan. At the 
time, I was critical of the strategic plan, because it looked 
more like a business organizational document, rather than a 
strategic document.
    In December, 2007, S&T submitted a document called 
Coordination of Homeland Security Science and Technology, which 
is a compilation of science and technology requirements, gaps, 
and strategic goals, as well as agency roles, responsibilities, 
accomplishments, and ongoing activities taken from a variety of 
existing strategies, plans, and directives. Though I believe 
this is a useful document, I was hoping for more specifics.
    This document provides no estimates of budgetary or 
resource requirements and provides overviews of programs rather 
than details of program content. It doesn't describe the 
process that was used to identify particular topics as an 
appropriate focus. It also neglects to discuss nuclear threats, 
which is a curious absence. In fact, the document gives no 
indication of the relative importance of the 10 chapter topics. 
It lists short-, mid-, and long-term requirements but doesn't 
suggest if we should work on these goals sequentially or 
simultaneously.
    I hope that the Quadrennial Homeland Security Review 
Process will provide an opportunity to strategically assess the 
value of the many initiatives under way. Perhaps this is a 
better format for the Department to address these concerns.
    So while I congratulate the Under Secretary for its effort 
thus far--and he brings, obviously, a wealth of knowledge and 
experience to the table, and we appreciate his service to the 
country--I still have to say that we still need additional 
clarification where the Directorate is headed. I believe that a 
future S&T Directorate must clarify a role for risk assessments 
and prioritizing research projects, develop or further define 
metrics for success and failure of projects, obligate funds in 
a more timely fashion, enhance transparency, project selection, 
further define roles and uses of national laboratories and 
Centers of Excellence, enhance relationships with the DOE 
national laboratories by allowing competition for both long-
term and short-term R&D money, improve responsiveness to 
industry and develop processes by which industry can become 
more aware of opportunities at S&T, better define technical 
requirements, and establish a robust procurement operation 
within the S&T Directorate.
    Just as getting the four P's right was an important first 
step in ensuring organizational successes, getting these issues 
right will ensure that the S&T Directorate at DHS will continue 
to generate products that protect this Nation.
    With that, I want to thank Under Secretary Cohen for 
working with us and this subcommittee; and I look forward to 
our continued relationship in the future. Again, Secretary, I 
appreciate you appearing with us today.
    With that, the Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, my partner in this 
effort, Mr. McCaul, for an opening statement.
    Mr. McCaul. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Admiral, welcome back. You are certainly no stranger to 
this committee.
    I want to first commend you for the incredible progress you 
have made since the time you have come on board. It is truly 
remarkable. We don't always say that to our witnesses who 
appear before this committee. We can be pretty hard on them. 
But I think you have got the best job in the Department.
    You know, the science and technology is really going to 
provide the answers to so many of the Homeland Security, 
national security issues that we face in this country; and I 
look forward to hearing from you your vision as to where you 
want to take this Department in a futuristic way in terms of 
transforming it and using technology to our advantage.
    I will say under your leadership the Directorate has 
implemented the Integrated Product Team process to better 
collect and coordinate the DHS operational component needs and 
capability gaps. In addition, the efforts of the Homeland 
Security Advance Research Project Agency have been realigned to 
operate more effectively.
    The Directorate, through its Centers of Excellence Program, 
which I look forward to your testimony on as well, has also 
worked directly with this country's leading universities and 
academics; and as someone who represents the University of 
Texas, I believe that the universities have a critical role to 
play in a public-private partnership, if you will, with the 
Federal Government. This will reduce redundancies in research 
and work toward prioritizing goals.
    I commend you again for your service. I am sure that 
everyone here will agree that, while great progress has been 
made, there is still a lot of work to be done not just in the 
Department but here in the Congress as well. We have yet to 
reauthorize other transactional authority beyond the end of 
this fiscal year, which in my view is a critical component in 
allowing the Directorate to work with nontraditional government 
contractors; and I introduced a bill to provide that authority.
    Congress also needs to consolidate oversight authority so 
that DHS officials can get to work instead of testifying in 
front of 86 different committees and subcommittees that 
currently have jurisdiction. That remains really the sole 
recommendation of the 9/11 Commission yet to be enacted.
    This committee also needs to reestablish an annual DHS 
authorization bill to provide the guidance to the Department.
    I hope, Mr. Chairman, that we can work on these issues this 
year to help ensure that the Department and the S&T Directorate 
are both ready for the future; and, with that, I yield back.
    Mr. Langevin. I thank the gentleman.
    The other members of the subcommittee are reminded, under 
the committee rules, opening statements may be submitted for 
the record.
    With that, I want to welcome our witness, the Honorable Jay 
Cohen, who is the Under Secretary of Science and Technology at 
the Department of Homeland Security.
    Jay Cohen is a native of New York. He was commissioned in 
1968 as an ensign upon graduation from the United States Naval 
Academy. He has a long and distinguished career with the Navy, 
commanding several ships and submarines during his tenure. He 
was promoted to the rank of Rear Admiral in October, 1997. 
Prior to his arrival at S&T, he served as Chief of Naval 
Research. Under Secretary Cohen was sworn into his current 
position at the Department of Homeland Security in August 2006.
    Mr. Under Secretary, we appreciate your service to our 
country, as I have expressed many times in the past; and I 
welcome you back to this subcommittee.
    Without objection, Under Secretary Cohen's full statement 
will be inserted into the record; and I now recognize him to 
summarize his statement for 5 minutes.
    Welcome, Mr. Secretary.

STATEMENT OF THE HONORABLE JAY COHEN, UNDER SECRETARY, SCIENCE 
        AND TECHNOLOGY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Cohen. Well, good afternoon, Chairman Langevin and 
Congressman McCaul and all the distinguished members of this 
committee. It is always a great honor and privilege for me to 
testify before this committee. I know you have many questions. 
Thank you for entering my written comments for the record, and 
so I will make my comments short so that we can address your 
questions.
    But I will say that the Congress and this committee, in 
establishing the Science and Technology Directorate in the 
enabling legislation for the Department of Homeland Security 
set a very high bar and understood, as has already been 
addressed, the value that science and technology brings to 
making the Nation safer.
    We live in a very optimistic country. When President 
Kennedy said we were going to put a man on the moon in this 
decade, we had no idea if we would put a man on the moon. But 
we believed; we achieved. It is who we are. So I suffer a 
little bit from the goals and the desires of the Congress and 
the American people to move faster in all that we are doing. 
But sometimes science and technology moves at its own pace.
    Chairman, your leadership and the rest of the committee and 
the full committee have been invaluable to me; and the 
bipartisan support that we enjoy--because in my opinion science 
and technology is in fact bipartisan, nonpartisan--has been 
absolutely invaluable to me as we have moved forward.
    You have addressed the four P's. I have had the opportunity 
over the last year-and-a-half to address with this committee 
and the full committee the initial goals, which were--I call 
them the four ``gets''. We had to get the organization right, 
we had to get the books right, we had to get the people right, 
and when we did that we could get the content right. Now I 
believe that that is fundamentally done.
    Then I characterized the threats that we face as the four 
B's; and that was bombs, borders, bugs, and business. You all 
understand, we all understand bombs, borders, and bugs, but 
what is business? Business--and, Chairman, you have been very 
actively involved in this--is the cyber backbone. It is the 
underlying processes by which our society is enabled; and we 
only have to look at Symantec and McAfee, Estonia, and the day-
in, day-out threats to our way of doing business, 
communicating, et cetera, to understand the priority that 
deserves.
    Well, we are now a year-and-a-half into it, and I think we 
have got the four gets about where I can get them. We still 
face significant threats, and so where we are today with a 
stable organization are the four P's. The four P's are people, 
government service people, motivated people, capable people. 
When I came on board, as you know, fewer than 60 percent 
manning in government service. Today we are more than 96 
percent; and I have no shortage of volunteers, including people 
who want to work pro bono.
    The processes, Congressman McCaul has already addressed the 
Integrated Product Team. We are customer-focused, output-
oriented. Half of my budget goes in 0 to 3 years, spiral 
development, and my customers are 22 components and agencies, 
and the customer of my customers, the first responders. Ten 
percent goes to innovation, high-risk/high-role, prototypical 
in nature.
    I am pleased to inform this committee and inform this 
committee first that, based on that investment portfolio, last 
week we just completed the basic research thrust alignment of 
the 20 percent of the budget that goes to universities and 
laboratories, the greatness of America, the discovery and 
invention, and the two pillars of basic research.
    Partnerships, already addressed the national labs; and 
thank you for letting me leverage them.
    International partnerships. We have 6 MOUs, memorandums of 
understanding, right now. We are negotiating another six. The 
European Union has come to me twice now and put 1.4 billion 
Euros on the table because they want to partner in what they 
call security and we call Homeland Security. This is an area we 
have reached out, partnerships, and we can leverage what I call 
OPM, other people's money. When you put those together they 
equal product. They equal product. That is what we are 
delivering and will continue to deliver with your help.
    So thank you very much for your support. I look forward to 
your questions. I welcome your oversight. With that I will 
conclude my comments.
    [The statement of Mr. Cohen follows:]
                Prepared Statement of Hon. Jay M. Cohen
                             April 1, 2008
                              introduction
    Good Afternoon Chairman Langevin, Ranking Member McCaul and 
distinguished Members of the committee. It is an honor for me to appear 
before you today to update you on the progress of the Department of 
Homeland Security's (DHS) Science and Technology Directorate (S&T 
Directorate).
    The S&T Directorate is committed to serving our customers--the many 
components that comprise the Department--and their customers--the 
hardworking men and women on the front lines of homeland security, 
especially the first responders, who need ready access to technology 
and information to perform their jobs more efficiently and safely. I am 
honored and privileged to serve with the talented scientists, engineers 
and other professionals who support these dedicated Americans in our 
shared mission to secure our homeland and defend our freedoms.
    First and foremost, I continue to be very appreciative of the 
leadership of the Congress in its support of the S&T Directorate, and 
of me personally, as Under Secretary for Science and Technology. I am 
grateful for the engaged and nonpartisan relationship we enjoy, which 
is vitally important for the S&T Directorate. The informed counsel of 
committee Members with homeland security oversight, and that of their 
staffs, has been invaluable to the Department's efforts to position the 
S&T Directorate for accountability, tangible results and success, both 
for today and in the future.
    Last year, I told you that to achieve long-term success, the S&T 
Directorate must get four ``gets'' right--its organization, its people, 
its books, and its program content. I also told you that we would 
concentrate our activities on the four ``Bs''--bombs, borders, bugs and 
business--to stay focused on priority threat areas for the S&T 
Directorate.
    I'm pleased to report that since last year, we have made 
significant progress in the four ``gets'' and the four ``Bs.''
    Highlights of this progress include:
  <bullet> Publishing a strategic plan that provides a framework to 
        guide the Directorate's activities over the next 5 years;
  <bullet> Strengthening our workforce by increasing Federal staff, 
        implementing training initiatives, and building morale through 
        directorate-wide communications and events;
  <bullet> Realigning our organizational structure and research, 
        development, test and evaluation (RDT&E) activities to better 
        serve the Department's components and their end users; and
  <bullet> Establishing a customer-led, Capstone Integrated Product 
        Team (IPT) Process to identify our customers' needs and develop 
        and transition near-term capabilities for addressing them.
    This year, I am going to focus on the four ``Ps'': People, Process, 
Partnerships, and Product. Fine tuning and sustaining the four ``Ps'' 
will ensure that the S&T Directorate achieves enduring success.
    The first ``P'' is for People. That is because once you get the 
people right, you have to keep the people right. The S&T Directorate 
will keep the right mix of people by having a solid staffing plan and 
by being a great place to work. Our employee communications, training 
opportunities and directorate-wide activities have helped make the S&T 
Directorate a place where highly skilled professionals want to be. We 
must sustain this effort.
    The second ``P'' is for Process, because you need a stable and 
efficient operational foundation to keep an organization, its program 
content, and its books right. The S&T Directorate will refine and 
integrate its internal management processes--financial and 
administrative--to ensure operational excellence and fiscal 
responsibility. We must also mature those processes that drive the 
delivery of products to our customers, such as our customer-led 
Capstone Integrated Product Team (IPT) Process--and continue to support 
a balanced portfolio for RDT&E activities.
    The third ``P'' is for Partnerships, which are essential for long-
term success. The S&T Directorate will build on the international and 
interagency partnerships it put in place this past year by establishing 
more formal working agreements and commitments to the development of 
homeland security science and technology.
    The fourth ``P'' is for Product, because we exist to deliver to our 
customers' science and technology breakthroughs that will strengthen 
the security of our homeland.
                                 people
    The S&T Directorate functions as the Department's science and 
technology manager. We invest in science and technology that supports 
DHS component efforts to protect out homeland. To achieve this, the S&T 
Directorate develops and manages an integrated program of science from 
basic research and technology innovation through technology transition. 
The managers of this program are predominantly active scientists and 
engineers in the many disciplines relevant to Homeland Security. 
Program investment is guided by a multi-tiered strategy and review 
process based on higher guidance, customer needs, and technology 
opportunities.
    Our staffing is currently at 93 percent of Full Time Equivalents 
(FTE). Hiring has been slowed due to the continuing resolution and a 
reduction in the M&A funding, but we expect to reach our full 
complement of 381 FTEs by the end of fiscal year 2008. This year we are 
putting in place a career Senior Executive Service Deputy Under 
Secretary for Science and Technology to help ensure a seamless 
transition into the next administration. I'm also pleased to inform you 
that in the past several months we have received a number of 
unsolicited employment applications from very qualified individuals. 
The word is out that the S&T Directorate is making a difference.
    It continues to be very important to me personally that S&T 
Directorate staff be kept informed of our plans and priorities and that 
they have a forum for asking questions and expressing their views and 
concerns. I hold monthly ``All Hands'' meetings to brief all staff 
members, including teleconference links with staff in other locations 
such as the Transportation Security Laboratory in Atlantic City, New 
Jersey, the Animal Disease Center on Plum Island, New York, the 
Environmental Measurements Laboratory in New York City, and the 
National Biodefense Analysis Countermeasures Center in Fort Detrick, 
Maryland. These meetings also allow me to recognize the achievements of 
staff members, to answer questions and solicit input, and, most 
importantly, express my gratitude for their superb work.
                                process
    I thank Congress for its support of the new organizational 
structure, which we put in place in September 2006.
    This enabled us to re-engineer our management and administrative 
processes over the last 2 years to reduce the costs of our business 
operations by more than 50 percent. We accomplished this by 
implementing several efficiency initiatives to make better use of our 
resources including converting positions filled by contractors to be 
civil servants, consolidating office space, and limiting our overhead, 
which I will continue to cap at 9 percent in fiscal year 2009.
    It has also supported a broad and balanced range of activities that 
are aimed at identifying, enabling and transitioning new capabilities 
to our customers to better protect the Nation. This is reflected in the 
President's fiscal year 2009 budget request, which includes $145.1 
million for the basic research portfolio; $361.4 million for the 
transition portfolio; and $58.6 million (including SBIR) for the 
innovation portfolio.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Basic Research (> 8 years)
    The S&T Directorate's basic research portfolio addresses long-term 
research and development needs in support of DHS mission areas that 
will provide the Nation with an enduring capability in homeland 
security. This type of focused, protracted research investment has the 
potential to lead to paradigm shifts in the Nation's homeland security 
capabilities.
    The S&T Directorate's basic research program enables fundamental 
research at our universities, government laboratories and in the 
private sector. I have previously stated a goal to grow this account to 
approximately 20 percent of the budget; and I am pleased today to be 
able to say that we have met this goal. Approximately 20 percent of the 
S&T Directorate's investment portfolio, or $136.2 million, is allocated 
for basic research in the current fiscal year with 20 percent or $145.1 
million planned for fiscal year 2009. It is essential that basic 
research be funded at consistent levels from year to year to ensure a 
continuity of effort from the research community in critical areas that 
will seed homeland security science and technology for the next 
generation of Americans.
    This year, we will focus internally on refining our basic research 
``thrust areas'' and developing better means to measure the 
effectiveness of the basic research portfolio. I have asked the 
National Academies to help in this effort.
Product Transition (0 to 3 years)
    Development of the product transition portfolio is driven by our 
customer-led, Capstone Integrated Product Teams (IPTs) that function in 
mission-critical areas to identify our customers' needs and enable and 
transition near-term capabilities for addressing them. These Capstone 
IPTs engage DHS customers, acquisition partners, S&T Division Heads, 
and end users as appropriate in our product research, development, 
transition and acquisition activities.
    The Capstone IPT process enables our customers to identify and 
prioritize their operational capability gaps and requirements and make 
informed decisions about technology investments. The S&T Directorate, 
in turn, gathers the information it needs to respond with applicable 
technology solutions for closing these capability gaps. The science and 
technology solutions that are the outcome of this process, referred to 
as Enabling Homeland Capabilities, draw upon technologies that can be 
developed, matured, and delivered to our customer acquisition programs 
within 3 years.
    Our experience over the last year has led us to align our Capstone 
IPTs structure to 12 major areas: Information Sharing/Management; 
Border Security; Chemical Defense; Biological/Agricultural Defense; 
Maritime Security; Cyber Security; Transportation Security; Counter 
IED; Cargo Security; People Screening; Infrastructure Protection; and 
Incident Management (includes first responder interoperability).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    S&T's product transition/IPT process ensures that appropriate 
technologies are engineered and integrated into the DHS acquisition 
system for our customers. Approximately 53 percent of S&T's investment 
portfolio or $376.0 million is allocated for product transition in the 
current fiscal year with 49 percent or $361.4 million planned for 
fiscal year 2009.
Innovative Capabilities (2 to 5 years)
    The Innovation/HSARPA portfolio supports three important efforts to 
put advanced capabilities into the hands of our customers as soon as 
possible: Homeland Innovative Prototypical Solutions (HIPS), High 
Impact Technology Solutions (HITS) and the Small Business Innovative 
Research (SBIR) program.
    HIPS are designed to deliver prototype-level demonstrations of 
game-changing technologies within 2 to 5 years. Projects present 
moderate- to high-risk, with a high-payoff if successful.
    HITS are designed to provide proof-of-concept solutions within 1 to 
3 years that could result in high-payoff technology breakthroughs. 
While these projects are high-risk, they offer the potential for 
``leap-ahead'' gains in capability should they succeed.
    The Small Business Innovative Research (SBIR) program, which the 
S&T Directorate manages on behalf of DHS, issues two solicitations each 
year and generates multiple awards for the small business community. 
The first solicitation for fiscal year 2008 opened in mid-February and 
the second solicitation is planned for release in May. The 
solicitations will address topics in areas that are aligned with the 
S&T Directorate's six technical divisions.
    The Innovation/HSARPA funding request for fiscal year 2008 was $60 
million and $33 million was approved in the final Appropriations Act. I 
do not believe this reduction reflected any lack of confidence in the 
portfolio on the part of the Congress, but was rather an outcome of the 
extreme pressure in the Appropriations ``end game.'' Therefore, we are 
requesting $45 million in fiscal year 2009 for Innovation's HITS and 
HIPS activities.
Test & Evaluation and Standards
    In 2006, I established the Test and Evaluation and Standards 
Division (TSD). TSD is working closely with DHS Under Secretary for 
Management as well as all DHS components to develop and implement a 
robust Test and Evaluation (T&E) policy for all of DHS that will be 
fully integrated into the Department's Acquisition Policy. The goal of 
the T&E policy will be to establish processes to support the evaluation 
of system efficacy, suitability and safety. TSD has established a T&E 
Council to allow participation by all components of DHS in promoting 
T&E best practices and lessons learned in establishing consistent T&E 
policy and processes for use in acquisition programs throughout DHS. 
Developmental Testing and Evaluation (DT&E) and Operational Testing and 
Evaluation (OT&E) are conducted at levels commensurate with validating 
performance and Technology Readiness Level (TRL) of the system 
throughout the development process. TRL assessments are initiated early 
on S&T projects and are performed throughout development to ensure 
technology is maturing as required and that projects are ready to 
transition to the DHS components at the appropriate time. DT&E is 
performed during the developmental phase of a product or system and is 
concerned chiefly with validating the contractual and technical 
requirements and the attainment of engineering design goals and 
manufacturing processes. OT&E focuses on determining operational 
effectiveness, suitability, and supportability and is performed with 
production representative equipment, with trained operators in an 
operational environment by an independent third party.
    DHS Acquisition and T&E Policy under development will provide the 
appropriate review chain both within DHS as well as the approval 
process for test results and for adequacy of testing. The draft T&E 
policy that is being developed will require user components to 
participate in creating, reviewing and signing the Test and Evaluation 
Master Plan (TEMP). Its primary purpose is to describe the necessary 
Developmental Test and Evaluation (DT&E) and Operational Test and 
Evaluation (OT&E) that needs to be conducted in order to determine 
system technical performance, operational capabilities and limitations. 
The TEMP is an integrated and agreed-upon plan to ensure that the right 
tests are conducted and the products are meeting the user requirements. 
Having the customers involved in the test planning, execution, and 
reporting for the technology or system under development will ensure 
that the components are able to use the results and maintain a current 
knowledge during the product development. The TEMP also addresses the 
testing laboratories, capabilities, facilities and ranges required for 
the test program; testing laboratories are accredited/recognized; and 
independent oversight of the tests are performed. Additionally, when 
possible DHS ensures independent operational test teams are involved 
early in the project development to ensure operational shortcomings are 
identified and corrected as early as possible during development. The 
test results will be critical in ensuring that DHS products meet the 
necessary milestones to continue development.
    While the T&E Policy is being finalized, DHS development programs 
are moving forward with the assistance and guidance of TSD in designing 
T&E protocols to assess whether systems meet standards, technical 
specifications and some operational requirements. It is the 
Department's objective to prepare standard T&E master plans, test plans 
and test reports to document the planning, execution and reporting 
phases of the testing. Test plans are required whether the research 
project is being conducted internally or externally to S&T. Red Teaming 
will be included in the test plans as required and be employed post-
deployment when appropriate.
    The DHS components working within the DHS Capstone IPT process 
ensure that the user needs are addressed in the research as well as the 
testing and evaluation. End user needs are incorporated in the planning 
and design of the tests. All tests will be performed to component 
requirements or DHS adopted standards. Reports of efficacy, safety, and 
suitability are assessed against test criteria which are developed with 
Component input.
    TSD is also developing an accredited/recognized test capability, 
with the goal of testing all products in accredited/recognized 
facilities. The accreditation/recognition process is under development 
and facilities are currently being identified that are capable of 
conducting different aspects of the testing process. Accomplishing 
independent testing in realistic operational environments will better 
assess product effectiveness and suitability. Test results from the 
above process will allow decisionmakers to formulate better judgments 
concerning readiness for transition to the next phase of development or 
deployment.
    TSD has an effort under way to ensure that once testing is 
completed both components and first responders have access to product 
performance evaluations. T&E results will be placed on the Responders 
Knowledge Base (RKB) that is funded and managed by FEMA. In addition to 
posting the results on the RKB, the DHS T&E policy will provide 
standard report formats to ensure that the results are useful including 
system limitations and capabilities.
    In the area of standards, I would to like mention our efforts to 
implement the DHS Standards Policy through the development of a 
standards infrastructure and the issuance of guidance. Just as with 
T&E, we have established a Standards Council. TSD and the Standards 
Council have developed and distributed guidance on the participation in 
the development and use of non-government standards. We continue to 
evaluate and adopt voluntary consensus standards in support of the 
Homeland Security Grant Program as well as key initiatives such as 
National Preparedness. Our standards development program continues its 
successful support for research on standards to support national needs 
in homeland security. In August 2007 the Office of Standards published 
its first Annual Report which documents the work and accomplishments of 
the previous year. In the years ahead we will be focusing on refining 
our investments to reflect the evolving challenges facing the 
Department, utilizing S&T's new operating model and the outputs from 
the Capstone IPTs. The range of projects includes trace and bulk 
explosives detection, biometrics, credentialing, chemical and 
biological countermeasures, responder protective equipment and many 
more. The standards office engages experts from the DHS components and 
a variety of Federal partners, and leverages the outstanding work of 
private sector standards development organizations.
                              partnerships
    Over the past year, we have built partnerships that have helped us 
align our efforts within the S&T Directorate, across the Department, 
and with our public and private partners around the world. Within the 
Directorate, we have developed and published the S&T Strategic Plan 
that provides the strategy and planning framework to guide the 
Directorate's activities over the next 5 years. Through the Capstone 
IPT process, we have aligned our transition portfolio to our customers' 
needs. In basic research, we have aligned our university-based Centers 
of Excellence and, as a result of a meeting I held with the Directors 
of the Department of Energy (DOE) National Laboratories in May 2007, 
the National Laboratories to our six technical divisions to focus this 
enormous capability more closely on the fundamental knowledge gaps that 
limit our customer-oriented applied research programs. We announced 
five new COEs on February 26, 2008, which will further satisfy the 
Directorate's need for university-based fundamental research.
    Over the past year my Office of Interagency Programs (and First 
Responder Liaison) has worked very closely with DoD to develop and 
enhance information-sharing opportunities. Among the accomplishments 
were the development of an implementing agreement among the partners 
and a senior level DHS-DoD working group. These accomplishments will 
help ensure the best use of resources while avoiding duplication of 
effort and will promote further cooperation among our partners. The 
first S&T liaison position within the California Governor's Office of 
Homeland Security was also established to enhance interagency efforts 
with our customers. Many of the experiences of this successful pilot 
were used as a working model for engaging with our Federal, State, 
local and tribal customers We will continue to conduct national 
interagency outreach through site visits, meetings, conferences and 
symposia to promote Federal, State, Local, and Tribal interoperability, 
collaboration, and coordination in the area of Science and Technology.
    We also developed the Coordination of Homeland Security Science and 
Technology document that establishes the baseline for the efforts of 
the entire Federal Government homeland security research and 
development community. This document lays out the roles and 
responsibilities of Federal agencies as well as initiatives already 
under way to counter threats to the homeland. It identifies strategic 
goals through 2015 and intermediate steps to achieve those goals, and 
is the first step in developing a more prescriptive plan that will 
guide the efforts of all participants in the Homeland Security Science 
and Technology enterprise. For the next steps in the development of 
that plan, I intend to work with the Office of Science and Technology 
Policy's National Science and Technology Council to utilize standing 
processes and committees, specifically the Committee on National and 
Homeland Security, which I co-Chair. Continued development of the plan 
concurrent with the Quadrennial Homeland Security Review beginning this 
year will play an important role in helping align strategies and 
missions to adapt to a fast-changing world and an ever-evolving enemy.
    Industry is a valued partner of DHS S&T and its continued 
participation in developing solutions for homeland security 
applications is vital to our effort to safeguard the Nation. Consistent 
with S&T's new structure, our Innovation/HSARPA portfolio and six 
technical divisions will be releasing BAAs that seek industry 
participation to address specific challenges in their respective areas. 
For example, Innovation/HSARPA has already posted BAAs for projects 
that cross all six divisions, seeking prototype or proof of concept 
demonstrations within 1-5 years.
    Innovation/HSARPA plans to release additional BAAs as new 
technology developments permit and as new gaps in capabilities for 
homeland security are identified. We have issued a Long Range BAA (08-
01) that will remain open throughout the fiscal year. This BAA allows 
both national and international public and private sector providers to 
offer solutions to a very broad range of gaps and requirements. As I 
have often said, no one knows where good ideas come from and for that 
reason I have been personally proactive in both seeking out and 
receiving technology briefs and opportunities from all sources. This is 
a culture I am working to instill throughout the DHS S&T Directorate.
    Additionally, DHS S&T has held several Stakeholder Conferences to 
foster business partnerships with key customers and partners, including 
industry, Federal, State, and local government leaders, and academia. 
The Command, Control, and Interoperability Division also held their 
annual Industry Roundtable to engage industry leaders on the future of 
communications interoperability issues.
    The Support Anti-terrorism by Fostering Effective Technologies 
(SAFETY) Act of 2002, administered in the S&T Directorate, continues to 
be a valuable tool in expanding the creation, proliferation and use of 
cutting edge anti-terrorism technologies throughout the United States. 
During fiscal year 2007, the Office of SAFETY Act Implementation 
achieved an increase of 81 awards, an 83 percent increase over the 
total cumulative number of approvals attained over the previous 3 years 
of the program. Approximately 86 percent of the approved awards during 
fiscal year 2007 have relevance for the classes of capabilities and 
needs identified by the Science and Technology Capstone IPTs. The 
number of applications was up 63 percent, while processing time has 
been reduced 31 percent. The career Federal staffing level of the 
SAFETY Act office was increased to three, thus providing more 
continuity of leadership, and permitting more attention and a quicker 
response to individual applicants. I am mindful of the interest in this 
program in the Congress and across the Nation.
    As part of our outreach efforts to encourage greater industry 
participation, the Directorate held the first Homeland Security Science 
& Technology Stakeholders Conference in May 2007 here in Washington. We 
were partners in a conference in London last December that focused on 
international outreach. And we held a conference in Los Angeles in 
January 2008, focused on ``Putting First Responders, First.'' On March 
19 and 20, we sponsored the second University Programs Summit here in 
Washington, an event at which participants will show off the results of 
their fantastic research at the colleges and universities that are part 
of the Homeland Security University Centers of Excellence. We will have 
another industry stakeholders' conference in Washington, June 2-5, 
2008. I invite you and all elected Members and staffs to attend these 
events so you might see for yourself the power of innovation and 
technology in making our Nation safer.
    I also know that we must look beyond our Nation's borders, for 
solutions to combating domestic terrorism. Therefore, consistent with 
DHS enabling legislation and the recent Implementing the 
Recommendations of the 9/11 Commission Act, the International Programs 
Division is responsible for coordinating international outreach efforts 
to help us tap into science and technology communities across the 
globe. We have proactively pursued bilateral technology and 
programmatic cooperation with my counterparts in the United Kingdom, 
Canada, Australia, Sweden, Singapore, the European Union, Germany, 
Mexico, France, Japan, and Israel. Formal agreements currently exist 
with Canada, the UK, Australia, Sweden and Singapore. With our current 
partners, we have twenty concrete projects in a number of high priority 
research areas including air cargo explosive detection, chemical and 
biological countermeasures, visualization and analytics, critical 
infrastructure protection, and incident management. In addition to 
these projects, active information sharing with our foreign partners 
has reduced duplication of research efforts, streamlined project 
development, and synergized the expertise of the broader international 
community to produce mutually beneficial results. The International 
Programs Division maximizes these relationships across the U.S. 
Government through active coordination with DHS Components and other 
agencies, including the Departments of State and Defense. Embedded S&T 
liaisons in Europe, the Americas and Pacific/Asia cast a wide global 
net to seek out new science and technology solutions with current and 
prospective partners. Annual academic grant competitions are open to 
the global community and provide worldwide access to cutting-edge S&T 
research in support of our homeland security mission. S&T is actively 
engaging with partners across the globe to develop coordinated efforts 
and joint solutions to our shared security challenges.
                                product
    I am committed to best apply across the S&T Directorate the 
resources you have wisely provided in ways that best serve the American 
people and better secure our homeland. Your support over the last year 
has allowed us to ``hit our stride,'' and I humbly ask for your 
continued trust and support of the President's fiscal year 2009 budget 
request to allow us to build upon that momentum. The following are a 
few examples of products we have developed and in some cases 
transitioned to our customers.
Border and Maritime Security
  <bullet> Developed a lightweight shipping container with embedded 
        security features within its walls, doors and floor to detect 
        intrusions. Shippers benefit from weight savings by allowing 
        them to load more goods per container, encouraging the use of 
        these more secure containers.
  <bullet> Conducted a joint test of the Marine Asset Tag Tracking 
        System (MATTS) with Japan. When fielded, MATTS will provide the 
        ability to track shipping containers in near-real time from 
        their origin to final destination using a remote global 
        communications and tracking device interfaced with sensors that 
        detect container breaching.
Chemical and Biological
  <bullet> Completed the Project BioShield material threat 
        determinations for all traditional biothreat agents of 
        significant public health concern. Such determinations are 
        required before the authorized use of the BioShield Special 
        Reserve Fund to procure new medical countermeasures.
  <bullet> Transitioned BioWatch Generation 1 and Generation 2 
        operations to the Office of Health Affairs (OHA).
Command, Control and Interoperability
  <bullet> Combined several government-funded testbeds to increase 
        cybersecurity capabilities to create a realistic model of the 
        internet on which to test cybersecurity technologies.
  <bullet> Assisted States in identifying and implementing effective 
        State-wide technical interoperability solutions; conducted 
        piloted programs to assess and demonstrate data and video 
        technologies in real-world environment.
Explosives
  <bullet> Evaluated and tested commercial off-the-shelf systems 
        capable of detecting homemade explosives to find the most 
        effective existing technologies.
  <bullet> Completed a system false alarm analysis of deployed check 
        baggage technology and provided results to the Transportation 
        Security Administration (TSA).
Human Factors
  <bullet> Developed a database of public needs that were unmet during 
        Hurricanes Katrina and Rita and made recommendations to address 
        those needs during future emergencies.
Infrastructure and Geophysical
  <bullet> Developed a risk-informed decision support system. The 
        system provides information for making critical infrastructure 
        protection (CIP) decisions by considering all 17 critical 
        infrastructure sectors and their primary interdependencies, and 
        computing human health and safety, economic, public confidence, 
        national security, and environmental impacts. Built out CIP-
        Decision Support System (DSS) to include cyber-disruptions, 
        nuclear event, and physical/natural disaster disruption 
        scenarios.
  <bullet> Developed the system requirements and designs for a first 
        responder 3D location system for tracking personnel that 
        provide incident commanders situational awareness through 
        accurate location and monitoring inside threatened buildings, 
        collapsed buildings, and subterranean areas.
Innovation
  <bullet> Initiated Homeland Innovative Prototypical Solutions (HIPS) 
        to deliver prototype-level demonstrations of game-changing 
        technologies in 2 to 5 years. These projects are moderate-to-
        high risk with high payoff potential.
  <bullet> Started High Impact Technology Solutions (HITS) to provide 
        proof-of-concept answers that could result in high technology 
        breakthroughs. These projects have the potential to make 
        significant gains in capability; however, there is a 
        considerable risk of failure.
  <bullet> Built upon the efforts in Explosives and demonstrated the 
        ability of sensors based on a high altitude platform to detect 
        the launch of and track MANPADS.
  <bullet> Investigated various technologies including probe systems to 
        be installed on the cranes that on-load and off-load ship-
        carried containers, sensors and container materials to improve 
        the effectiveness and efficiency of the screening of cargo 
        containers.
Laboratory Facilities
  <bullet> Managed the operations and maintenance of specialized DHS 
        laboratories and infrastructure including the Plum Island 
        Animal Disease Center (PIADC), portions of the National 
        Biodefense Analysis and Countermeasures Center (NBACC), 
        Chemical Security Analysis Center (CSAC), Transportation 
        Security Laboratory (TSL), and the Environmental Measurements 
        Laboratory (EML).
  <bullet> Began operation of the NBACC facility as a federally Funded 
        Research and Development Center (FFRDC).
  <bullet> Started construction of the Chemical Security Analysis 
        Center (CSAC).
  <bullet> Conducted the conceptual design of the National Bio Agro 
        Defense Facility (NBAF), which will be an integrated animal, 
        foreign animal, and zoonotic disease research, development, and 
        testing facility that will support the complementary missions 
        of DHS and U.S. Department of Agriculture (USDA). Down-selected 
        potential sites for the NBAF.
Test & Evaluation (T&E) and Standards
  <bullet> Continued to develop standards for an integrated chemical, 
        biological, radiological, nuclear, and explosive (CBRNE) 
        sensor.
  <bullet> Completed multi-modal biometrics standards, including 
        standards for latent fingerprint analysis, rapid biometric 
        evaluation, and biometric image and image feature quality.
  <bullet> Developed performance standards for emergency responder 
        locator communications in collapsed structures. These standards 
        will apply to new signal processing technologies that allow 
        amplification of weak signals through rubble from collapsed 
        structures.
Transition
  <bullet> Aligned and coordinated the Directorate's transition effort 
        with the Departmental component's requirements through the use 
        of Capstone Integrated Product Teams (IPT) and provided support 
        and analysis to the customer-led IPTs in developing prioritized 
        science and technology capability gaps based on their 
        experience and projected requirements.
  <bullet> Conducted a Marine Asset Tag Tracking System (MATTS) test 
        and workshop/conference on results with Japan and conducted a 
        bi-national S&T exercise with Sweden to identify and describe 
        transformational approaches to mitigating the effects of 
        improvised explosive devices in mass transit systems.
University Programs
  <bullet> Established five new DHS Centers of Excellence (COE) and 
        developed a number of efforts to improve the capabilities of 
        Minority Serving Institutions (MSIs) to conduct research in 
        areas critical to homeland security and to develop a new 
        generation of scientists capable of advancing homeland security 
        goals.
  <bullet> Provided scholarships for undergraduate and fellowships for 
        graduate students pursuing degrees in fields relevant to 
        homeland security.
                    fiscal year 2009 budget overview
    The S&T Directorate's fiscal year 2009 budget request reflects the 
refinement of our four ``Ps'' and a commitment to the S&T investment 
portfolio. The request of $868.8 million is approximately 5 percent 
over the fiscal year 2008 appropriation and 9 percent over the fiscal 
year 2008 request.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Management and Administration request reflects several 
efficiency initiatives to make better use of its resources and better 
accounts for program activity costs at the laboratories. The Research, 
Development, Acquisition and Operations request is primarily based on 
the increased support for the development of additional technologies 
for specific high-priority, customer-identified needs identified during 
the S&T Capstone IPT process.
Administration (M&A)
    The S&T Directorate requests $132.1 million for M&A in fiscal year 
2009. This is a decrease of $6.5 million from the fiscal year 2008 
budget request. This reflects a shift of $14 million and 124 positions 
to the Laboratory Facilities PPA combined with a $7.5 million increase 
to fully fund our planned FTEs.
Research, Development, Acquisitions, and Operations (RDA&O)
    The S&T Directorate requests $736.7 for RDA&O in fiscal year 2009. 
This is an increase of $80.2 above the fiscal year 2008 budget request 
and $45.0 above the fiscal year 2008 appropriation. The following is a 
summary of the fiscal year 2008 to fiscal year 2009 changes--many are 
due to the increased support for the development of additional 
technologies for specific high-priority, customer needs identified 
during the S&T Capstone IPT process, specifically:
            Borders and Maritime Security
    The fiscal year 2009 program increase of $9.4 million above the 
fiscal year 2008 request allows the development of additional 
technologies for specific high-priority, customer-identified needs 
identified during the S&T Directorate's Capstone IPT process. The 
increase will allow for the development of technologies for advanced 
detection, identification, apprehension and enforcement capabilities 
along the maritime borders that support a framework that includes Coast 
Guard partners for rapid, coordinated responses to anomalies and 
threats. A science and technology investment in these areas will 
provide significant risk mitigation complementary to proposed major 
acquisition efforts such as the Coast Guard's Command 21 program. This 
increase will also provide tools and technologies to border security 
and law enforcement officers allowing for efficient, effective and safe 
vehicle and vessel inspections. These tools will improve Coast Guard 
boarding teams' and Border Agents' effectiveness and enhance officer/
agent safety while searching vessels/vehicles.
            Chemical and Biological
    The fiscal year 2009 program decrease of $7.6 million from the 
fiscal year 2008 appropriation is in large part due to the BioWatch Gen 
3 Detection Systems and Detect-to-Protect Triggers and Confirmers 
projects within the Surveillance and Detection R&D Program of the 
Biological Thrust area coming to an end in fiscal year 2009. Also, the 
Autonomous Rapid Facility Chemical Agent Monitor (ARFCAM) and Low Vapor 
Pressure Chemicals Detection System (LVPCDS) projects in the Detection 
program of the Chemical Thrust area are ramping down to end in fiscal 
year 2010.
            Command, Control, and Interoperability
    The fiscal year 2009 program increase of $5.4 million over the 
fiscal year 2008 appropriation funds the development of additional 
technologies for specific high priority customer-identified needs 
identified during the S&T Directorate's Capstone IPT process. The 
increase in Cyber Security R&D will allow the division to address 
Supervisory Control and Data Acquisition (SCADA) and Process Control 
Systems (PCS) security increasing the protection and improving the 
resiliency of the electric distribution grid. These systems will 
proactively manage threats by identifying and responding to 
vulnerabilities and threats before they are maliciously exploited to 
significantly impact critical infrastructure. They will also provide 
autonomy of operations that can quickly respond to natural disasters 
and security events and address new vulnerabilities.
            Explosives
    The increase in the fiscal year 2009 request of $32.4 million over 
the fiscal year 2008 request supports Counter-IED Research, which 
includes Vehicle Borne Improvised Explosive Device/Suicide Bomber 
Improvised Explosive Device (VBIED/SBIED) Program, the Render Safe 
Program, and the Detection and Neutralization Tools Program. The 
increase in funding in the Counter-IED Research will allow the 
Explosives division to improve large threat mass detection in such 
areas as the transit environment, special events and other large areas.
    The implementation of Homeland Security Presidential Directive 19 
(HSPD-19), Combating Terrorist Use of Explosives in the United States, 
requires new science and technology solutions to address critical 
capability gaps in the areas of deterring, predicting, detecting, 
defeating, and mitigating the use of IEDs in the United States. The 
Office for Bombing Prevention (OBP) is currently assessing the Nation's 
ability to address this threat and is developing a prioritized set of 
technology gaps. The S&T Directorate is working with OBP to support 
basic science and develop technologies for the following kill chain:
  <bullet> Deter: Actionable Social and Behavioral Indicators of IED 
        Attacks; Intent-based Countermeasures;
  <bullet> Predict: IED Target Projections; IED Staging Area 
        Projections; Anomalous Behavior Prediction; Suicide Bombing 
        Prediction; Deceptive Behavior Screening; Multi-Modal 
        Behavioral & Biometric Screening;
  <bullet> Detect: Suicide Bomb Detection; Technology Demonstration & 
        System Integration; VBIED Detection; Canine R&D; Tagging R&D; 
        Standards;
  <bullet> Defeat: Electronic Countermeasures; Robotics; Render Safe & 
        Diagnostics; Directed Energy; Post Blast Forensics; Forensic 
        Marking; Bomb Components; Outreach; and
  <bullet> Mitigate: Blast Mitigation; Body Armor; Inerting.
    We are performing valuable work to improve methods of detecting 
explosives threats on people, in personal items and in cargo. As part 
of the Checkpoint Program, S&T's Explosives Division is working with 
TSA to complete test and evaluation efforts on the Whole Body Imaging 
system that could help operators of checkpoints better identify 
potential threats. We are also conducting tests to enhance the 
screening of carried baggage and personal items. We are conducting 
Operational Test & Evaluation (OT&E) of the Fido II Explosives 
Detection System and currently have units deployed at multiple airports 
in the United States. The portable detection system has been enhanced 
to detect liquid explosive components and will be used by TSA to 
counter the growing threat liquid explosives pose to transit security. 
This effort is complemented by our significant work to characterize the 
homemade and liquid explosives threat, which has included live fire 
tests to assess potential damage and the efficacy of hardening 
materials.
    In addition to addressing the risk of catastrophic loss resulting 
from IEDs in carry-on baggage or at public events, our Explosives 
Screening Program is identifying and developing the next generation of 
screening systems which will support continuous improvements toward the 
congressionally directed goal of 100 percent screening of aviation 
checked baggage by electronic or other approved means with minimum or 
no impact to the flow of people or commerce. We have continued our work 
on the Manhattan II and began test and evaluation efforts of the 
system's ability to identify real explosive devices, both homemade and 
conventional. We have also worked with industry to develop a common 
performance standard for coupling algorithms and hardware. Another part 
of our effort is the Air Cargo Explosives Detection pilot program. We 
began operations at San Francisco International Airport and at 
Cincinnati-Northern Kentucky International Airport, and launched and 
completed operations at Seattle-Tacoma International Airport. At all 
locations we are capturing vital information for TSA, including data on 
the costs of running a system capable of screening amounts of cargo 
above current levels, including equipment needs, staff requirements, 
and system upkeep, in addition to the impacts of these upgrades to 
overall airport operations. This data can be extrapolated to airports 
nationally, based on, among other things, the amount of cargo they 
handle and airport size. It will also allow TSA to develop operational 
plans that incorporate proven ways to screen air cargo while 
maintaining an effective and efficient air transport system.
            Human Factors
    The budget request for fiscal year 2009 is $12.5 million, which is 
$1.7 million less than the amount enacted for fiscal year 2008. In 
fiscal year 2008, the Human Factors Division received funds for the 
Institute for Homeland Security Solutions (IHSS) to conduct applied 
technological and social science research. In fiscal year 2009, the 
Human Factors Division is not requesting any funds for IHSS. The 
Division still intends to support efforts that address high-priority 
capability gaps in biometrics and credentialing, suspicious behavior 
detection, hostile intent determination, group violent intent modeling, 
and radicalization deterrence as identified by customers through the 
Capstone Integrated Product Team (IPT) for People Screening and the 
Technology Oversight Group (TOG), chaired by the Deputy Secretary. Two 
other Capstone IPTs, Border Security and Explosives Prevention, also 
identified Suspicious Behavior Detection as critical to meeting their 
respective high-priority capability gaps.
            Infrastructure and Geophysical
    The fiscal year 2009 request of $37.8 million is an increase of 
$13.8 million over the fiscal year 2008 request to fund several new 
program areas specifically identified by our customers, with efforts 
focused on high priority technology gaps in the areas of Infrastructure 
Protection and Emergency Incident Management. Specifically, funded 
efforts will improve the protection of our critical infrastructure by 
providing technologies for hardening these vital critical 
infrastructure assets and for rapid response and recovery for critical 
infrastructure assets to limit damage and consequences and allow for 
normal operations to be resumed more quickly than would otherwise be 
possible.
            Innovation
    The fiscal year 2009 program increase of $12 million reflects an 
increase in scope of existing programs as they mature and might allow 
for additional projects that would address gaps identified by the S&T 
Capstone IPT process. These projects are high-risk in nature but would 
dramatically increase capabilities in responding to threats posed by 
terrorism and natural disasters. The high-risk factor means that the 
Office of the Director of Innovation requires flexibility in the 
projects it funds. These projects will reach critical decision points 
to continue or stop. New projects are always under consideration, and 
the fiscal year 2009 request will potentially fund new projects or 
current ones that justify further development based on results.
            Laboratory Facilities
    The fiscal year 2009 request of $146.9 million is an increase of 
$43.1 million over the fiscal year 2008 appropriations. The S&T 
Directorate intends to cover the fiscal year 2009 operations and 
maintenance (O&M) startup costs of the new NBACC facility. These costs 
include the installation and outfitting of portable laboratory 
equipment and furnishings and funding interim space lease. Also in 
fiscal year 2009, the S&T Directorate intends to move the remaining 
functions of EML into much smaller office space in the same building or 
another General Services Administration (GSA) facility in the New York 
area and pay for a one-time cost for final cleanup of EML space (e.g., 
final disposal of contaminated material, removal of fume hoods, large 
exhaust ducting, furnaces, and shielded spaces). Also, the Directorate 
will begin a detailed design of the National Bio and Agrodefense 
Facility (NBAF) which will support the initiation of construction in 
fiscal year 2010.
    The increase also reflects a transfer of funds from Management and 
Administration to the Laboratory Facilities PPA to pay for salaries and 
benefits of FTEs located at the laboratories. All Homeland Security 
laboratory employees work on RDA&O products. The shift of laboratory 
FTEs into the RDA&O account better reflects the actual Science and 
Technology RDA&O program costs.
            University Programs
    In fiscal year 2009, the S&T Directorate is requesting $5.5 million 
less for its University Programs. This decrease reflects no funding 
request for the Naval Post Graduate School and a reduction to the 
educational programs within the S&T Directorate that fund scholars and 
fellows in homeland security-related fields.
            Transition
    The fiscal year 2009 program increase of $1.5 million will support 
a DHS competition for a new federally Funded Research and Development 
Center (FFRDC). The FFRDC will provide discreet, independent, and 
objective analysis to inform homeland security policies and programs 
and ensure continuity of FFRDC support.
            Test Evaluation and Standards
    The S&T Directorate requests $3.8 million less for fiscal year 2008 
than enacted for fiscal year 2008. This decrease is the result of 
having initiated the independent peer review program in fiscal year 
2008 and the program will therefore not need additional funding in 
fiscal year 2009. The S&T Directorate is also implementing a 
reallocation of funds by the TOG during the Capstone IPT process.
                               conclusion
    In conclusion, I am pleased to report that the S&T Directorate is 
well positioned today to mobilize the Nation's vast technical and 
scientific capabilities to enable solutions to detect, protect against 
and recover from catastrophic events.
    We appreciate the many demands on the taxpayers' precious dollars 
and you have my continued commitment that the S&T Directorate will be 
wise stewards of the public moneys you have entrusted to us. We are 
steadfast in our resolve to serve the best interests of the Nation by 
investing in the talent and technology that will provide America with a 
sustainable capability to protect against acts of terror and other 
high-consequence events for generations to come.
    Members of the committee, I thank you for the opportunity to meet 
with you today. I truly believe that through Science and Technology can 
come Security and Trust, and I look forward to working with you to meet 
our homeland security challenges with a renewed sense of purpose, 
mission and urgency in the last year of the administration.

    Mr. Langevin. Secretary, I want to thank you for your 
testimony, and look forward to a vigorous round of questions 
and I know substantive answers.
    I remind each member that he or she will have 5 minutes to 
question the panel, and I will now recognize myself for 5 
minutes for the purpose of questions.
    Secretary, let me begin with this. Do you agree with the 
assessment of HSI that I expressed in my opening statement, 
namely that it appears not to have progressed sufficiently 
toward achieving more core competency in specific areas of 
interest to the Department of Homeland Security? With that, 
will you provide us with a comprehensive review justifying the 
need for a federally Funded Research and Development Center? 
Additionally, would you commit to openly compete the next 
contract if Congress does reauthorize HSI?
    Mr. Cohen. Well, Congressman, or Chairman, I will answer 
those in reverse order.
    First of all, if reauthorized, I will fully and openly 
compete HSI; and that is the process, as you know, I have used 
in all of our various selections.
    To answer your first question, has it progressed 
sufficiently? The answer is, it is progressing. When I came on 
board, the model was much where HSI proposed projects. That is 
not my model. We needed to know the deficiencies, the 
shortcomings of the customer and then have HSI respond to 
those. So my model of HSI is much like the Center for Naval 
Analysis or the Naval War College. You give them a base program 
to bring on board the intellectual capital, but then you use 
mission funding from the customers for specific projects.
    Finally, we will be glad to provide the accomplishments to 
date; and you will see how HSI, I believe, in the last year to 
year-and-a-half has gotten it, but they will have to compete 
should it be reauthorized.
    Mr. Langevin. Thank you.
    Let me turn to this. In the past, S&T directors placed an 
emphasis on countering threats such as biological and nuclear 
attacks which have low probability but high consequence. The 
bulk of S&T money has often gone to fund these projects, and 
this year we have heard that increased funding is needed for 
countering improvised explosive devices because of their high 
probability. Has your thinking changed on the relative 
importance of probability and consequence? On what basis should 
Congress and the administration determine the relative 
priorities of responses to different threats?
    Mr. Cohen. Well, Chairman, that really is the $64,000 
question; and we have discussed this previously. As you know, 
we would like to follow a risk-informed decisionmaking process. 
Today we have actuarial tables for fire and flooding and 
earthquakes, and they are based on history and the 500-year 
flood. But why do bad people do bad things to perfectly good 
bridges and roads and buildings and infrastructure? We don't 
know why.
    So this is why I have gone--really at your behest, sir, and 
thank you for directing me--to the National Academy's Dr. 
Cicerone. We have met several times--I can provide for the 
record the letter following our last hearing--asking the 
National Academies to help us determine three areas that I 
think are unique to Homeland Security, hostile intent, 
psychology of terrorism, but, most importantly, what is the 
methodology for risk-informed decisionmaking?
    When the Department was stood up, the budget in S&T was 
one-third nuclear, one-third biological and one-third 
everything else. DNDO has been spun off, as you are aware, and 
so I don't have nuclear radiological responsibilities. We have 
transitioned BioWatch 2, and we are very close on BioWatch 3, 
but other threats have developed.
    I am very appreciative of the Congress for kick-starting in 
a very difficult year counter IEDs--it is a weapon of mass 
influence--with $15 million. The President added $35 million, 
as you know, in the fiscal year 2009 budget. So what we are 
trying to do is, based on real-world situations, intelligence 
and our experience, adjust the budget.
    Bio was down slightly, by $202 million. IEDs are up in this 
budget by about $50 million. We are looking across the spectrum 
of threats. But this is an area that will remain a work in 
progress, and I look forward to the interaction and response 
from the National Academies.
    Mr. Langevin. Fair enough.
    We have talked a lot about strategic plans here. Can you 
answer a few questions for us about the intent of the 
coordination document? Is it a strategic plan? How should 
Congress use this document? How is the interagency process 
working to get the Homeland Security Act strategic plan 
finished? What can Congress do to help move this process 
forward?
    Mr. Cohen. Well, Chairman, as always, that is an excellent 
question. In enabling legislation, the Congress very wisely--
and I testified to this--said that the S&T Directorate at 
Homeland Security was not to recreate National Institutes of 
Health, National Science Foundation, DOD or DOE laboratories. 
But, in exchange, I got to leverage everything that they can 
do. I can't set their requirements. But to the extent they 
invest, I get to add my precious dollars to focus on my 
customers and the first responders.
    When I testified last before this committee I explained to 
you that we had attempted more than a coordination document, as 
required by the enabling legislation, amongst all of the 
departments and agencies of government, and that that was a bar 
too high. We could not get concurrence. But what I was able to 
get and delivered to you last calendar year, as I committed 
that I would, was the concurrence of all the other departments 
for coordination.
    So it is not a strategic plan. I do not advertise it as a 
strategic plan. I would tell you it is a first step. I think 
that it defines and allows all of those agencies to come to the 
table so that they can contribute to making the Nation safer.
    We have two recent models, HSPD-19, which is counter-IEDs, 
executive order from the President. It said, for IEDs in the 
homeland, Department of Homeland Security and Department of 
Justice are responsible; and it put the principal S&T 
responsibility on me. That is why the Congress plussed me up 
$15 million and the President added $35 million in fiscal year 
2009; and we are coming forward with very clear roadmaps, 
transitions, strategic plan for that.
    But in HSPD-23, a much larger initiative, which is the 
national cybersecurity initiative, which affects all of 
government, there the responsibility falls with OSTP, the 
Office of Science and Technology Policy, Dr. Marburger; and 
there I am a player, I am a contributor.
    So there are two models. If you want specific 
accountability for a defined narrow problem, then you give it 
to an agency, they coordinate with others. If you have a more 
massive problem without the authorities to direct other 
agencies or their budget, then the best you can do in our 
system--and I think the Founding Fathers were wise in this--is 
coordination. But then hold the lead department accountable.
    So I hope that answers your question. But this coordination 
document was really to get it on the table, identify the needs, 
and then see where we can go in the next step.
    Mr. Langevin. What can Congress do to help you move the 
process forward?
    Mr. Cohen. Well, Chairman, thank you for asking.
    I think you and your staff are familiar with the 
Congressional Research report for Congress which came out on 
February 1, the DHS Directorate of Science and Technology Key 
Issues for Congress. I am a big fan of the Congressional 
Research Service; and Ron O'Rourke, as you know from our 
shipbuilding days, keeps a very close eye on what defense is 
doing.
    I went and had Mr. Shea and Mr. Morgan for lunch the very 
next week to discuss their findings; and they, I think, 
correctly summarize in an objective way the structural problems 
that this 5-year-old agency--I call it this incredible 
experiment in nuclear fusion where we took 22 very disparate 
agencies and brought them together, and why we did that, we did 
that to eliminate seams, and that was the right thing to do, 
because terrorists and criminals will always take advantages of 
seams.
    But we have built in some structural problems. The Congress 
is well aware, because of my challenges with commitments and 
obligations of getting money out the door, that in a matrixed 
organization if you don't control acquisition, as I enjoyed in 
Navy, so I was one-stop shopping, including, Congressman 
McCaul, other transaction authority, which rightfully needs to 
be very closely monitored--but we need to have it in S&T. If 
the matrixed organization doesn't understand that their success 
is based not only on their metrics as a contracts officer with 
Federal acquisition but also the supported components so that 
we can accomplish our mission, then you have difficulties in 
assigning accountability.
    This is an area that I am personally engaged in. As you 
know, we brought our obligations up to over 75 percent in 
fiscal year 2007 because of the continuing resolution. I am a 
little bit behind. But the team effort--I call it leadership by 
embarrassment--I will get that team on board even though I 
don't have the authorities, so that by the end of the year our 
obligations are better than they were last year.
    But we need to look at, as we come to the end of this 
administration, what the next round are for refinement of these 
processes that perhaps had been suboptimized in the Department.
    Mr. Langevin. Thank you, Secretary.
    The Chair now recognizes the ranking member of the 
subcommittee, the gentleman from Texas, for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman; and thanks again, 
Admiral, for being here.
    I want to--I enjoyed your testimony, particularly your 
reference to the acronym OPM, which I have not heard before, 
other people's money. I guess that is what we spend up here. I 
like it when you spend other people's money, not from our 
American taxpayer. That is very good news. I think that is 
great progress.
    I also want to commend your director of R&D on 
cybersecurity. He is participating on the commission that 
Chairman Langevin and I started that is a nonpartisan 
commission to make recommendations to the next administration 
on cybersecurity. He is doing a fantastic job.
    I had several questions, and I want to start with what you 
touched upon, another acronym, OTA, other transactional 
authority. I introduced a bill to reauthorize this ability for 
you to transact and contract with companies, maybe smaller 
businesses that aren't exactly traditional contractors. Could 
you tell this committee why that authority is important to your 
efforts and what could we do to improve it?
    Mr. Cohen. Yes, sir.
    S&T, science and technology, is unique in the Federal 
Government; and the Congress has recognized this over many, 
many decades. It is the strength of America. You have given 
S&T, independent of the Department, tools that other parts of 
research and development or acquisition may not enjoy.
    Small Business Innovative Research, 2.3 percent. I love the 
program. It is ma and pa's in garages all around America. We go 
out with various fairs, et cetera. You may be familiar with the 
Dazzler. This has been shown on TV. It is the seasick machine. 
So now we have a nonlethal weapon that our first responders can 
use. Instead of ``Don't Tase me,'' people will say ``Daze me.'' 
That came out of SBIR.
    OTA, other transaction authority, is another one of these 
authorities that is critically important.
    Congressman Pascrell in one of my very first hearings 
encouraged me, along with Congresswoman Lowey, to have a sense 
of urgency because we don't know when the next attack will 
come. Now I answered Mrs. Lowey and I reminded her we were both 
New Yorkers, which is close to New Jersey, sir, and I don't 
remember anyone using the word ``patience'' with a New Yorker. 
But OTA gets to the urgency of the problem.
    Now as I remember--and I am not an acquisition specialist--
there are three criteria for OTA. One is nontraditional 
performer. That company, independent of size, has not 
previously dealt with the Federal Government. They are hard to 
find, but when you find them they have got pearls to offer as 
solutions.
    I used that once. I used that once in ONR; and that was for 
the X-Craft, the Sea Fighter. We went from keel laying to 
delivery in 2 years. Small little shipyard up in northwest 
Washington State.
    The second criteria is where traditional performers provide 
offset. This is the OPM model. The law says, if they come--it 
can be a GE. It can be a Northrop Grumman. If they give the 
taxpayer a real 30 percent, $0.30 on the dollar offset, we can 
award the contract to them without competition to move forward 
to get us a capability.
    Then, finally, national security, where on my own I can 
just do it. I must tell you, sir, the bombs would have to be 
falling on this hearing room for me to do that.
    But the other two criteria I have used. I have used the 30 
percent--I require more than that. In fact, we have done one, 
resilient electric grid for New York, where I required 40 
percent offset.
    So this is a tool. It can be abused if oversight is not 
there. But I must tell you the contracts people are very 
hesitant to use this. The IG is all over it. The lawyers are 
all over it. It has been critically important in my chem-bio 
area and in my interoperability area, and we can give you 
examples of that for the record. But we thank you for your 
support on that, and it does need to be reauthorized.
    Mr. McCaul. Thank you for saying that.
    Mr. Chairman, I hope we can, because that will expire at 
the end of this year. I hope this committee can reauthorize 
this important contracting provision that enables you to do 
some great things at the S&T.
    Second, I wanted to bring up NBAF, which I know will be of 
great interest to a lot of Members on this committee who would 
love to have that in their districts. But let me just ask you, 
when do you anticipate a site selection will be made in that 
area?
    Mr. Cohen. Yes, sir, and I see at least three members. You 
know, I started this process. I inherited 17 sites in 12 
States, which reminded me that 24 senators were my best 
friends. Last July, I was down to 10 senators who would talk to 
me as we went to five States; and this October two may buy me a 
cup of coffee. So we are on schedule.
    As you know, we are doing the environmental impact 
statements. We are doing the NEPA. We are out there. This is a 
critically important facility as you look at how the world is 
changing.
    Nuclear weapons, they are the big threat. But today you 
either have to buy or steal a nuclear weapon. I don't think the 
probability of that today is high, but it could be. But because 
of genomics, because of the Internet, today all you need to 
have a pathogen to create a pandemic is a brain, a microscope 
and a basement. We suffered anthrax attacks shortly after 9/11. 
We were delivering death by mail, including to the Houses of 
Congress.
    So the NBAF is critically important. It is going very well.
    As you know, I am only using government service people for 
this. I flew to every site. I am a New York City boy. 
Congressman Pascrell will appreciate this. Growing up in 
Manhattan, I thought wildlife were squirrels, rats and pigeons. 
So I learned a lot traveling all around to these cow patches.
    But we will make the announcement. My goal is October of 
this year. So far we appreciate the support of all the States, 
localities, and the Congress.
    Mr. McCaul. Thank you.
    Then, last, you mentioned the area where the priority is 
going up due to the threat was the infrastructure with the IED 
threat.
    Mr. Cohen. Yes, sir.
    Mr. McCaul. Two areas that are of interest to my 
constituents. One is probably to all of our constituents. One 
has to do with human factors in airport screening.
    Second, of course, border technology at the border. We 
passed a border technology bill out of Science and Technology 
Committee that I helped move along, and we hope to mark it up 
in this subcommittee. Can you just--and I know our time is 
somewhat limited--can you comment on those two areas?
    Mr. Cohen. Yes, sir. I will make those fairly short.
    First of all, we thank you for that bill on cross-border 
technologies. I think if you map from Customs and Border 
Protection their high priority technology needs and you look at 
my investment portfolio you will see almost a one-to-one 
correspondence. But I appreciate the attention to that.
    As you know, University of Texas El Paso was one of the co-
leads recently announced for Centers of Excellence for the 
border. Arizona is the dry border. El Paso is the wet border. 
The culture is different in the two States across the border.
    This is an area where I am following Customs and Border 
Protection and SBInet's lead. They went for the low-risk 
deployable system working with Boeing and DRS. So, on one hand, 
I am helping them with spiral development, hoping to move the 
towers, for instance, from 5-mile spacing to 7\1/2\-mile 
spacing. That would be spiral development.
    But on the other hand in innovation, we are looking at 
unmanned aerial systems, day-night monitoring, persistent 
surveillance to embarrass the program of record. So this is why 
S&T is schizophrenic. We are helping the program of record, but 
for the next phase we are trying to show them a better way, and 
so that is what we are doing with the border.
    I apologize----
    Mr. McCaul. The human factors, airport screening.
    Mr. Cohen. The human factors and the airport screening, 
hostile intent and psychology of terrorism are the two areas, 
in my opinion, which if I don't invest in I can't find anyone 
else in government that will; and so we created, as you know, 
the Human Factors Division. It is the smallest of my divisions, 
about 2 percent, but it will grow. It is the softer sciences. 
It is an area where, if we don't get it right, I don't believe 
there is any technology that can overcome our lack of 
understanding of what I call the human element.
    So this is an area likewise that we have alignment from our 
universities. It is a growth area. It is one of my bigger 
investments in innovation, future attributes screening. I am 
very sensitive, as I know this committee understands with your 
help, to the privacy issues. We look at attributes, not at 
profiling. It is an open process.
    So both items you have talked on are critically important, 
and they are the future.
    Mr. McCaul. I think, last, our constituents are looking 
forward to the day they can board an airplane without taking 
their shoes off. So hopefully that glorious day will happen in 
the near future.
    Mr. Cohen. Congressman, if you remember when I testified, I 
was sworn in on August 10, 2006. That was the day of the liquid 
explosives plot. Welcome aboard. We had some hearings about 
that. We came with the 3-1-1 rule. Now that is not a solution. 
That is risk mitigation.
    But I am going out to Los Alamos this Friday to view what 
we call mag-vis, magnetic vision, where we are able to 
characterize liquids. Then through a very low-level, primary 
screening MRI, you will be able to do it in your carry-on. You 
won't have to take out the bag. You may not have to take out 
your computer. We can identify the liquids. Are they a 
potential threat, are they safe, or we don't know, meaning 
secondary screening?
    In January of last year I was in line at Reagan Airport, 
myself, my wife. We were on travel. As I told the committee, 
during those months after August 10, 2006, traveling with my 
wife, of course I pay for her, I found out the real cost, the 
real value of liquids and gels, it was called cosmetics, which 
motivated me to get liquids back on board.
    But here we are. It is January of last year. We are at 
Reagan. It is Friday afternoon, myself, my wife, and Chairman 
Bennie Thompson. We are in line going through screening, and 
Chairman Thompson turns to my wife. She is from lower Alabama. 
He is from Mississippi. They speak the same language. He said, 
Isn't this crazy? I am Chairman of the committee, your husband 
is the head of S&T, and we have got to take our shoes off. We 
got on the plane. We went on different planes. My wife said to 
me, you did okay with the liquids, but you are not leaving 
until you fix the shoes. We are testing a shoe screener next 
month, sir. So that is my goal. Thank you.
    Mr. McCaul. That is very good news. Thank you, Admiral.
    Mr. Langevin. Before I go to the questions, I just wanted 
to mention something--two things. I am glad you are looking at 
the issue of profiling personality traits as opposed to racial 
profiling. I think that is a much better indicator of those 
that might--identifying those who might have hostile intent, 
and it avoids the issue of racial profiling. Because I think 
that is a false sense of security if we go in that direction, 
and so I am pleased to see that.
    There was just a report in the news--I believe it was last 
night--about the use of behavioral profiling. That is I believe 
a much better indicator of potential hostile intent of those 
who might wish to carry out a terrorist attack.
    The other thing I wanted to mention, that, on OTA, I can 
understand why and how it can be of great benefit. But, again, 
while we are still evaluating whether or not the authority is 
going to be reauthorized--and we are very open-minded. We have 
asked GAO to update their report on OTA, and they will be 
getting back to us, to this committee shortly to tell us how 
effectively DHS has actually used this authority. That will, of 
course, weigh heavily on the decision whether or not to 
reauthorize it.
    Mr. Cohen. Chairman, if I may, on the attribute screening, 
I feel so strongly, as do you, that my Human Factors Division 
on their own established what they call the Community 
Perception Group. These are people external to DHS, just 
citizens, various scholars, et cetera; and I had a chance to 
sit down with them about 3 weeks ago. It is for exactly those 
reasons. It is not just what we think is good science but how 
is it perceived by the population at large? So it is not a 
FACA, but it is important to us to have that kind of near-term 
response, as well as Privacy Office and all the other formal 
controls that are there.
    Mr. Langevin. Thank you for the comment.
    The Chair will now recognize other members for questions 
they may wish to ask the witness. In accordance with our 
committee rules and practice, I will recognize members who were 
present at the start of the hearing based on seniority of the 
subcommittee, alternating between majority and minority. Those 
members coming in late will be recognized in the order of their 
arrival.
    With that, the Chair now recognizes the gentleman from 
North Carolina, Mr. Etheridge, for 5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. Under Secretary, thank you for being with us today.
    As you remember, in December 2007 you released the 
Coordination of Homeland Security Science and Technology 
document, which the committee looked for, because it 
articulates the Department's strategic view for science and 
technology in support of our strategic objectives for Homeland 
Security. In that report you highlight the importance of 
defense of animal, plant and foods against biological threat 
agents. You alluded to that a few minutes ago, whether they 
were introduced through terrorism, accident or natural means. 
Being someone who represents a pretty good chunk of an 
agricultural district in North Carolina, I am pleased that the 
Department as a whole and the S&T Directorate in particular is 
emphasizing the need for research and preparedness against 
biological threats. Because that I think is still an area we 
have to be prepared for. As you indicated earlier, North 
Carolina is one of those five finalists. So my question to you 
is threefold.
    No. 1, how does the current research at Plum Island Animal 
Disease Center and the proposed research for NBAF fit into the 
broader work of the Science and Technology Directorate on 
Biological Threats? Second, some of the work done at Plum 
Island is basic research, while other work is more applied. 
What do these facilities contribute to our ability in the area 
to rapidly respond to a biological threat? Finally, as you 
develop a national strategy for the biocontainment and 
biological research facilities, what precautions are being 
taken to assure the safety and security of the communities 
where these facilities are going to be built? Because, as you 
know, this will be one of those critical areas if we get there, 
we have got to let people know we are talking about 
containment.
    Mr. Cohen. Even 50 minutes--5-0 minutes--would not do 
justice, but I will run through very quickly at a high level.
    Plum Island is absolutely invaluable. Because of your 
biological background, Congressman Broun's, et cetera, you 
know, if we had a chart of the world and we looked at where we 
don't have foot-and-mouth disease it would be Canada, United 
States and Mexico. Everywhere else you have foot-and-mouth 
disease. For many years, 1950's and on, of course, the 
Department of Agriculture operated Plum Island with a focus on 
foot-and-mouth disease. I am so pleased with what they do 
there. I would tell you that, as we move forward, I believe the 
legacy of Plum Island will be an efficacious vaccine for foot-
and-mouth disease. That will roll into the NBAF. NBAF will be 
at a biological security level four. Plum Island is at three.
    There are other biological security level four laboratories 
in the country, some in Texas, elsewhere, but none of them deal 
with large animals. That's what we are talking about here are 
large animals. So Plum Island----
    Yes, sir.
    Mr. Etheridge. None of the category fours deal with large 
animals currently?
    Mr. Cohen. I say it another way. We have--that's correct. 
There is no large animal BSL4 lab. You can imagine the scale 
issues. Now BSL4 basically are diseases which if humans 
contracted we don't have a known cure. So that is, you know, 
very, very important.
    You asked how Plum Island responds. They are my first 
responder for this. It wasn't very widely publicized, but about 
half-a-year ago in Minnesota there was some indications of a 
swine problem. It turned out it didn't exist. But we didn't 
know that at the time. Not only did my Centers of Excellence up 
there help immediately, but we flew samples to Plum Island. 
Now, of course, it is an island, and we had to take the ferry, 
et cetera, but they were very responsive and immediately turned 
that around.
    In terms of the precautions, there will always be an 
element of risk. Nothing, nothing is foolproof. But as you go 
around the country--and I have had a chance to go inside some 
of these BSL and now BSL4 labs, we have learned a lot in 50 
years. The construction methods. It is basically a lab within a 
lab. It is a negative ventilation system. It is very expensive 
to do. You are looking at probably half-a-billion-dollar or 
more facility.
    But I can tell you the construction requirements are such 
that it would withstand, and I will demand this, the most 
probable high category tornado, which I see as the biggest 
threat. We can build around earthquakes and other kinds of 
things. But for some of the States which are competing, 
tornadoes; and tornadoes seems seem to be growing around the 
country. So we will do the very best that we can.
    But, you know, on Plum Island, it is an old facility. Even 
though it is an island--and I learned this when I visited 
there. I never knew what good swimmers deer were. You know, 
deer swim from Long Island over to Plum Island. They don't swim 
back because we don't allow any uncontrolled mammals other than 
humans to leave Plum Island. So we believe we have the 
technology, we have the methodology to make it safe on the 
mainland.
    I know there are several initiatives by different 
committees, et cetera. We are working with USDA. I want to make 
it clear that my model of NBAF--and that is how we operate Plum 
Island, is the Congress transferred the facility to DHS. I 
think that was right in terms of a threat. But it is operated--
I am the landlord, but it is USDA that operates it. It is a 
very good relationship. USDA is fully invested, embedded in the 
selection process for NBAF.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. Langevin. Thank you.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Broun, for 5 minutes.
    Mr. Broun. Mr. Secretary, Admiral, thank you for being 
here.
    As you probably know, I live in Oconee County, Georgia. It 
is just outside of Athens, which is one of the selection areas 
for NBAF. We hope that it will come to Georgia. But if you 
would, please, I appreciate your comments about the safety. 
That is what I get in my community a tremendous amount of 
concern about, and I am sure you are getting that around the 
country. If you would comment about the major benefits of 
building the new facility on the mainland, as opposed to 
continuing research at Plum Island.
    Mr. Cohen. Yes, sir; and I will try to make it as pithy as 
I can.
    I have already described, based on the Minnesota incident, 
some of the difficulties, time delays of getting to Plum 
Island. The people at Plum Island, and they are government 
service employees, are really dedicated. But as we look at a 
new facility--and all of this is in the record of decision, so 
I am not giving away any secrets here--some of the criteria we 
looked at was not only community support but it is also the 
intellectual capital that a region might be able to bring; and 
we identified that as proximity to veterinary schools, medical 
colleges, et cetera. I didn't realize there are only 30 vet 
schools in the whole country, and they are fairly concentrated.
    Proximity to an airport, so that we could rapidly, as the 
threat continues to grow and evolve--and we have seen that not 
just from terrorists, but we see it in nature. The world is 
getting smaller. The ability to have an airport to transport 
samples in and out, vaccines, et cetera. We need a secure 
environment to prevent terrorist attack on the facility. We 
need to make sure that there is reliable water, sewage, 
electricity.
    The people who work there, because these are large animals, 
we need people in significant numbers to handle those animals. 
I must tell you this is a great challenge to me at Plum Island. 
When I was up there a year ago, and I lived for a while on Long 
Island, I didn't realize that small houses at the end of Long 
Island can cost $850,000 to a million dollars. My animal 
handlers are GS-11, 12s. I can't afford, and perhaps 
Congressman McCaul could raise the limit on my pay along with 
the OTA.
    But, be that as it may, that is very personal. Be that as 
it may, I have difficulty hiring the requisite people to do 
what needs to be done. The scientists who work there are 
actually sacrificing, based on their pay, to work there and 
have a reduced quality of life just because of the cost of 
living.
    So as we looked around the country--and I must tell you in 
any of the five final sites that we looked at on the mainland, 
my God, you can live very well as a GS-11 or 12. So we think 
this will be a magnet to attract high-quality people and give 
us significant efficiencies. I don't have to pay for multiple 
ferries. You get the idea.
    Mr. Broun. Thank you, Admiral.
    I want to change tracks a little bit, given that the S&T 
director is not the only R&D operation within DHS, how and when 
are the decisions made as to which office will take precedence 
on any particular object or particular topic?
    I would particularly like for you to discuss cybersecurity, 
because I think that is one of the biggest issues, long term, 
that we face in this country.
    Mr. Cohen. Yes, sir, it is an excellent question. The 
American model of science and technology, and this really 
evolved with World War II, is that in S&T--basic research, 
applied research, and advanced technology--we take risks with 
millions of dollars to prevent putting billions of dollars in 
acquisition. Acquisition is risk averse, and it should be.
    So if in product transition I am working on a 3 to 5 
megapixel improvement, in innovation I am working on the 100 
megapixel prototype. If the 100 megapixel prototype fails, it 
failed in S&T, I didn't put the acquisition program at risk, 
and they are still better than they were.
    S&T is the first step of research and development. Research 
and development is basically product improvement. Whether you 
are building a ship, an aircraft, a medical device, it is 
either in production or going into production, and now you are 
doing risk elimination to get it right, getting it right for 
the customer, getting it safer, underwrite the labs, et cetera.
    So I live in a high-risk area. I cut across all of DHS, 
every area except for nuclear/radiological. When DNDO was stood 
up, it is cradle-to-grave, and I respect that. They have a 
different model. They are half-an-inch wide, a thousand miles 
deep. They are one-stop shopping. They are S&T through 
deployment and operation. My model, I am half-an-inch deep and 
a thousand miles wide. That is where I live.
    So I have 12 Capstone IPTs, Integrated Product Teams. All 
22 of the agencies and components sit in some combination on 
those 12. They are capability-focused. I then vary the time of 
delivery, the risk of my investment and the provider--whether 
it is university laboratory, industry, other components of 
government--but I am one-stop shopping except for nuclear/
radiological.
    Each component then, as they get into acquisition or into 
in-service support upgrades, et cetera, if they can handle that 
through a normal acquisition, don't need risk reduction, they 
go and do that. That is R&D.
    But if they have a higher-risk solution, they come to me 
and I spend the S&T dollars. It is not intuitive. I apologize. 
As a doctor, you understand this from Pfizer, et cetera. We use 
the term RDT&E; S&T is actually a subset of R&D. It is a stand-
alone, and it is the first set.
    Mr. Broun. So is that coordination between the different 
departments working well on all of these different projects 
that you are doing?
    Mr. Cohen. I think the short answer is yes, but I would 
defer to my customers to answer that. I am here to serve them.
    One of the reasons we went to this model--and the Chairman 
knows this better than most--when I came on board and the 
components of DHS were asked, What is S&T doing for you, their 
general answer was, What is S&T? There was not an engagement 
methodology. We have corrected that.
    Mr. Broun. So are the problems that have been identified 
and that you need to correct--and what are you doing to correct 
those problems, develop this seamless R&D and Science and 
Technology focus on all of these different threats?
    Mr. Cohen. Well, let me give you an example with cyber, 
because you referenced that initially, Congressman. Trying to 
solve cyber is like trying to solve world hunger. Where do you 
begin? How do you eat an elephant, you know, one bite at a 
time?
    The model before HSPD-23, in my cyber investment, was to 
address challenges within DHS as a department of government. I 
am changing from that investment. I am now working with the 
other agencies in the Federal Government under Dr. Marburger, 
OSTP, to find out where we can best invest--not for the 
Department but for the Nation as a component--work with the 
Department of Justice, Department of Defense, Commerce, et 
cetera, as part of the greater solution.
    Now, that is a macro example. All of the other areas, 
except for IEDs, where, again, I leverage Justice and Defense, 
I am very focused on just the components of DHS.
    I think it is not seamless, but at least we are at the 
table talking, and I am aligning my budget to the customer 
needs. If the customer doesn't have a validated requirement, I 
don't invest.
    Mr. Langevin. The gentleman from New Jersey is recognized 
for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Admiral Cohen, I believe that you are deserving of a 
tremendous amount of praise, and I have been quick to criticize 
many folks who are in your Department there. But you have done 
a great job in a very short period of time, really, with all 
the problems that you faced when you got there.
    Very seldom do we hear any discussion about research into 
the psychology of terrorism. Maybe you folks are different; I 
haven't. I think this is critical to us in defending our 
Nation, our neighborhoods and our families.
    I am reminded of a book I read way back when in college 
here, written by Eric Hoffer: The True Believer. We talked 
about what sets folks into doing the craziest and most terrible 
things, horrific things, that one can imagine.
    If we don't understand that, if we don't grasp the essence 
of it, I don't care how many bombs we build and how we threaten 
people or how we attach motivation to certain acts, it is not 
going to work. I don't think it will, anyway.
    I salute you for that. I hope you will continue. I am 
interested to learn more about what you are finding.
    One of my greatest concerns as a Member of this committee 
is the belief that we have not bridged the interoperability gap 
that our first responders tragically experienced on 9/11.
    I was proud to join with David Reichert when we sponsored 
the 21st Century Emergency Communications Act of 2006. It 
elevated the Department of Homeland Security's interoperability 
focus by establishing a new Office of Emergency Communications, 
which is not under you directly, but we know that the office is 
not part of the Science and Technology Directorate. You do have 
an Office of Interoperability that is meant to supply this 
other office that we created with research and development 
technology, and your budget has increased slightly in your own 
interoperability. Hopefully this means we are finally starting 
to understand the urgency of this particular problem.
    But the question, Admiral Cohen, is in your mind how far 
away are we--and try to be as definitive as possible--from 
truly bridging the interoperability gap--I mean, all over the 
country? That is the major problem I get.
    Mr. Cohen. Congressman, I thank you for your leadership on 
this with Congressman Reichert.
    As you have noted, I enjoy the Office of Interoperability 
and that is headed by my division director for Command, 
Control, and Interoperability, Dr. David Boyd, retired Army 
colonel and a real hero with the first responders around the 
country.
    I think before we rationalized the Department, as you 
mentioned OEC, it would also be under me. But, you know, in my 
model I need a customer. So in chem-bio you wisely establish an 
Office of Health Affairs.
    In this model, along with the FEMA realignment, OEC went to 
preparedness. So they set the requirements, they deal with 
State and local, they deal with first responders; and then 
David and I fulfill those requirements. That is a very good 
model, and we have been able to leverage that.
    Interoperability is my No. 1 priority from the first 
responders. I hear that everywhere I go.
    As you know, Dr. Boyd put out a survey several years ago. 
We got 20,000 out, 7,000 back. What we found was--and this 
surprised me--is that technology is not the problem in 
interoperability. It is culture.
    So today if I have Verizon and you have T-Mobile, I have a 
PC, you have a Mac, I have Windows, you have Java, we can 
communicate. We do it all the time. It is called middleware. 
But what David found was we have communities--they will go 
unnamed--where the police chief only allows the police to talk 
with him. He then gives the information he wants to the fire 
marshal, who then gives it to the firemen who are standing next 
to the police at the scene and they have the same model 
Motorola set.
    Now that is something that I think in time we will work at. 
There are various rules for blue force trackers, where in some 
communities the police don't want to have tracking, et cetera.
    So you asked for a definitive answer. I would tell you we 
are much better than we were. The efforts of you and 
Congressman Reichert and the Congress have helped us 
enormously. The grant program has helped. But at the end of the 
day--I came in with a swagger; well, I don't control grants, 
but I am Standards and Test and Evaluation, so maybe I should 
get to sign off on it. I find out we give $2 billion or $3 
billion in grants, and the locals spend $10 billion or $12 
billion.
    Hi, I am from Washington, I am here to help. Buy a raffle, 
buy a muffin. That is how you help. This is America. It is how 
we are.
    But we are making significant progress and with David 
Boyd--because this is really the focus of his life. We just 
went forward with an innovative program which I call Phone 
Home. I can't afford JTRS, the Joint Tactical Radio System that 
has every waveform, but this is fat-fingered because firemen 
wear gloves.
    I am learning about tactics, techniques and procedures. 
They are not sailors and marines, they are first responders 
where, we believe, we are going to test about 1,000 of these, 
between 100 and 1,000, to show that they can pick up any 
frequency, any waveform, line of sight, et cetera, and we will 
be able to communicate.
    So we are going to show the feasibility, but in the end, it 
is up to the communities to absorb it.
    Mr. Pascrell. Just a quick point here, Mr. Chairman, if I 
may, Admiral. I think that there is another reason for this, so 
I am asking the question. That is--and you may not agree with 
me--we have wasted a lot of money in trying to jump to that 
technology when, in fact, a solution was staring us in the 
face.
    It is a culture that we have to deal with out there. We 
ought to say that, and we ought to address it so that we can 
come closer to doing what we want to do.
    If this is the most important factor--and there are a lot 
of important factors--and whenever these are a priority, 
nothing is a priority. But there are a lot of important 
factors. If communications is the most important factor, then 
we have got to straighten this out, and whatever it takes, we 
have to do it. Money, obviously, is not the only answer. It is 
a devilish problem, it really is.
    The second part of it is we need the total cooperation--and 
I don't if you deal with it with the FCC--because you are never 
going to solve this problem unless the proper broadband is 
there or unless you are all on the same frequency.
    Mr. Cohen. Yes, sir.
    Congressman, you have it exactly right. Communications is 
the No. 1 enabler and it is the No. 1 challenge. To date, I 
have not had problems with the FCC, but as you know, we are 
looking at a frequency spectrum, Auction, et cetera.
    There are many proposals before the Congress. I am 
satisfied in your wisdom, in your oversight, you will do the 
right thing, sir.
    Mr. Pascrell. Thank you, Admiral, I appreciate it.
    Thank you, Mr. Chairman.
    Mr. Langevin. I thank the gentleman. The gentlelady from 
Virgin Islands is now recognized for 5 minutes.
    Mrs. Christensen. Thank you, Chairman, and thank you, 
Admiral Cohen. I too want to commend you for moving the 
Department along quite a ways from where you met it when you 
came in.
    I wanted to ask a question, sort of a general question to 
begin with, on the coordinating document, at a plan; because 
CRS has reported in what we have as preparation for this 
hearing, that it is really not a national Homeland Security R&D 
policy or a strategic plan. You yourself say that you never 
wanted for it to be, but it is a first step.
    Is it your intention to take what you have and move it 
toward a national strategic plan, or do you feel that because 
of the nature of S&T and what your role is that a coordinating 
document is more fitting and you would just work from there and 
improve upon what you have?
    Mr. Cohen. Well, Congresswoman, first of all I want to 
thank you for your longstanding support, and you are here at 
every hearing.
    Mrs. Christensen. That is right.
    Mr. Cohen. So I look forward to seeing you. My wife and I 
look forward very much always----
    Mrs. Christensen. Coming to the Virgin Islands, great.
    Mr. Cohen. Going to the Virgin Islands. It is either that 
or the lobster in Rhode Island or the barbecue--it is a tough 
call, it is a tough call--or the peach ice cream in Austin or 
in Fredericksburg.
    I did the best I could do, and I have testified to that in 
a coordination document. I think it is an important first step.
    But as the Chairman very rightly said, we are going to 
follow a quadrennial review process, which I think we have to 
embrace. I am very familiar with the Department of Defense, and 
at the end of the day it lays out the priorities, it lays out 
the responsibilities. I am a big believer in leadership by 
embarrassment.
    You get what you inspect, not what you expect. If you shine 
a light on something, and people know they are going to be held 
accountable--I say, How will they read in the investigation? 
You know what? They put emphasis on it, they put people on it, 
and they bring resources to bear.
    So that is why I felt that the Chairman pushing me to get 
that languishing document out, although it wasn't to the level 
he desired or I desired, just getting it out set a baseline. 
Now the quadrennial review, we will be able to build on that.
    It would be my hope as a citizen that--and we are a new 
Department, 5 years old, we just had our birthday. I am sorry, 
I brought the appropriators cake, I didn't have any cake left 
for you--that it will grow into a unified document.
    We know how to do that in government. It is difficult, but 
we know how to do it.
    Mrs. Christensen. Thank you.
    I wanted to ask a question also about BIOWATCH because I am 
concerned about the current BIOWATCH system, as I understand 
it, that is employed by the Department. Given the speed of 
agents, biological and chemical, that we are concerned about, 
could you give us an update on the time--if you have been able 
to cut down the time that it takes for BIOWATCH to identify 
threat agents and how much you have been able to cut it down?
    I would also be interested in the rates of false negatives, 
false positives. Has that been narrowed as well? If the current 
technology covers viruses?
    Mr. Cohen. Congresswoman, the existing system is called 
BIOWATCH II. It is an analog system. It is not even state-of-
the-art. It was when we deployed it 3 years ago. It is in 30 
major cities.
    We have taken probably close to 4 million samples. It is 
analog, it is drawn over a cloth. Once a week we come, we 
collect the cloth. So it is time late. We go into the lab, we 
analyze it, et cetera.
    In that time we have no known--no known false positives. We 
have about 2 dozen real positives. They were all environmental, 
we know where they came from, they weren't terrorists.
    We are getting ready to deploy the initial deployment 
BIOWATCH III. Now, BIOWATCH III is state-of-the-art. In fact, 
there are some competing commercial variations of it. It is 
still about the size of a small refrigerator.
    Mrs. Christensen. We have chosen--you have made a decision 
on which one of those competing----
    Mr. Cohen. No, no, I love competition. We happen to have a 
government--from the laboratories--solution, which we would 
make available to all offerors, recognizing of course the 
intellectual property and proprietary rights that we may have 
leveraged.
    In this one, it is close to lab on a chip. It does near 
real-time, meaning minutes and hours analysis within the 
device, and it is wirelessly connected so that you don't have 
to collect and then analyze the sample separately.
    Mrs. Christensen. So your goal is to get near real-time 
notification of an agent, identifying of that agent within 
minutes to hours?
    Mr. Cohen. Absolutely. That we are deploying on a trial 
basis this year. But that is not good enough for me. We have 
testified previously, our cell phones today have computing 
power that exceeds that of a supercomputer of 10 years ago. It 
has voice, it has text, it has video, it has a camera, it has 
GPS, and we do it all with a lithium battery.
    We are looking in our innovation portfolio at something we 
call Cell-All. I am looking to put one chip, one small chip in 
here--maybe for anthrax, maybe for botulism, maybe for cobalt-
60 radiation--in your pocket. If it alarms, 01, like a carbon 
monoxide detector, it sends a 911 message; time, location. All 
it says is ``anthrax.''
    You are in McPherson Square station, and 911 gets it. It is 
a false alarm until 2 minutes go by and here is another one, 
another one, and it is at McPherson Square.
    Now, we have the ability--technology exists in a cell, no 
matter who you subscribe to, to send you a warning message. 
This is the Virginia Tech kind of scenario that tells you that 
there is an anthrax event going on in McPherson Square station, 
please evacuate--and, oh, by the way, evacuate to the south 
because the plume model is taking the anthrax to the north. I 
got over 80 respondents for this broad agency announcement 
ranging from ``I got the solution and it is patented,'' to some 
high-end wow stuff.
    So there are 2.8 billion of these, Congresswoman. At the 
end of the day, wouldn't you like to have that protection--and 
it is random--in your pocket? Oh, by the way, for privacy, just 
like GPS, you don't want it, you can turn it off. You can turn 
it off.
    This is an area we are making incredible progress. It is 
one-third of my budget. Over $200 million goes to chem-bio. 
This is where the Department of Energy labs with their 
background, like Lawrence Livermore and others, and the 
universities, are making an incredible contribution. Of course, 
we are leveraging HHS, National Institutes of Health, CDC, et 
cetera, et cetera. So I think this area, we will be looking at 
near real-time broad area surveillance coupled with plume 
modeling and sensors, but we are not there yet.
    Mr. Langevin. I thank the gentlelady for questions. 
Admiral, we are bringing the hearing to a close, and I want to 
thank you for your presence here today and your testimony.
    What I did want to ask as a final parting question, as the 
S&T Directorate moves forward into the transition year, can you 
explain to us what plans are being developed to ensure smooth 
takeover between 2008 and 2009?
    Mr. Cohen. Yes, sir. The short answer is, at some point I 
leave. As you remember, you didn't want me to leave ONR, and I 
was hesitant to, even after 5\1/2\ years, to leave the Office 
of Naval Research.
    But, you know, we say in the Navy that if you are working 
for someone and they don't like you or you don't like them, 
just wait 18 months, one of the two of you will move on.
    So in large measure, I have accomplished what the 
President, what Secretary Chertoff and the Congress--and I 
thank you all for the incredible support--asked me to 
accomplish; that was the people, the process, the partnerships, 
and get the product out the door.
    As you well know, from Naval Research, they just announced 
$163 million broad agency announcement for free electron laser, 
something we had invested in at the $10 million range to bring 
to fruition. They are shooting an electromagnetic rail gun. We 
have the got the Mach 7 missile that I partnered with Tony 
Tether on. The list goes on and on and on.
    So when you have the people, as we do, government service, 
you have the processes established and repetitive, when you 
have a 5-year budget--and that is what I have gone to, not the 
annual budget, so we won't be able to whip-saw S&T.
    The Congress controls the money. We have the partnerships 
which are committed to us, and product is getting out the door. 
I believe we have created a market--nay, an addiction--to S&T 
by the customers, the 22 components of DHS at the government 
service, at the professional level, and the first responders.
    So the transition is bright, and I believe 1 year or 2 or 3 
from now, just if you are on the Defense committees, you would 
hear the continuation of those initiatives from Naval Research. 
I think you will be pleased with the foundations that we have 
set.
    Mr. Langevin. Admiral, I want to thank you for your 
questions--your answers to the questions today and your 
testimony. I particularly appreciate the answer on the question 
of the lady from the Virgin Islands on the biosensors.
    I am anxious to have that next generation of biosensor 
deployed and operational as soon as possible. I share your 
concern about the potential that they offer to better protect 
the country. Again, I am anxious to see those deployed. Keep up 
the work, the pressure on everyone to get it done.
    Again, I do appreciate your service to the country, and it 
is always a pleasure to have you before us on this 
subcommittee.
    Mr. Cohen. Mr. Chairman, you and the committee are very 
kind. I would just like to remind everybody I am the head 
cheerleader and the chief fundraiser. It is the wonderful 
dedicated people that man the Science & Technology Directorate 
that make all of this possible, and I am indebted to them.
    Mr. Langevin. Well said, well said.
    Again, thank you for your valuable testimony. I want to 
thank you for your answers to the questions.
    The members of the subcommittee may have additional 
questions for the witness. We ask that you respond 
expeditiously in writing to those questions.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 3:37 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
